                            U S. DEPARTMENT OF ENERGY
                           OFFICE OF INSPECTOR GENERAL




                     MATTERS IDENTIFIED AT THE
                 SAVANNAH RIVER OPERATIONS OFFICE
         DURING THE AUDIT OF THE DEPARTMENT'S CONSOLIDATED
               FISCAL YEAR 1998 FINANCIAL STATEMENTS



 The office of Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available electronically
                       through the Internet at the following addresses:

           Department of Energy Management and Administration Home Page

                                  http://www.hr.doe.gov/ig

                                              or

                                   http://www.ma.doe.gov


  Your comments would be appreciated and can be provided on the Customer Response
                           Form attached to the report.




Report Number: ER-FS-99-03                                    Eastern Regional Audit Office
Date of Issue: May 1999                                       Oak Ridge, TN
            MATTERS IDENTIFIED AT THE
        SAVANNAH RIVER OPERATIONS OFFICE
DURING THE AUDIT OF THE DEPARTMENT'S CONSOLIDATED
      FISCAL YEAR 1998 FINANCIAL STATEMENTS



                 TABLE OF CONTENTS

                                                             Page

         OVERVIEW… … … … … … … … … … … … … … … … … .          1

         Introduction and Objective… … … … … … … … … … … …    1

         Scope and Methodology… … … … … … … … … … … … …        1

         Observations… … … … … … … … … … … … … … … … … ..     2

         DETAILS OF OBSERVATIONS … … … … … … … … …            3
                                            OVERVIEW


INTRODUCTION AND OBJECTIVE

        The Government Management Reform Act of 1994 requires that audited financial
statements covering all accounts and associated activities of the Department be submitted annually
to the Office of Management and Budget. A Departmentwide audit of the consolidated Fiscal
Year (FY) 1998 financial statements was conducted by examining internal controls, assessing
compliance with laws and regulations, evaluating accounting transaction cycles, and testing
selected account balances at various Department facilities.

        The objective of the Departmentwide audit was to determine whether the Department’s
consolidated financial statements presented fairly, in all material respects, the financial position of
the Department as of September 30, 1998 and 1997, and its consolidated net cost, changes in net
position, budgetary resources, financing activities, and custodial activities for the fiscal years then
ended in conformity with Federal accounting standards. Departmentwide issues are addressed in
Audit Report No. IG-FS-99-01, issued February 25, 1999.

       The purpose of this report is to inform Savannah River Operations Office's (Savannah
River) management concerning matters that came to the attention of the Office of Inspector
General during the audit at Savannah River and Westinghouse Savannah River Company
(Westinghouse). Savannah River is responsible for the account balances entered into the
Department’s core accounting system (DISCAS).

SCOPE AND METHODOLOGY

       The audit was conducted from May 1998 through January 1999 at Savannah River and
Westinghouse. Specifically, we examined internal controls, assessed compliance with applicable
laws and regulations, and selectively tested account balances reported to Departmental
Headquarters as necessary to achieve the Departmentwide audit objective.

         Audit work was performed in accordance with generally accepted Government auditing
standards for financial audits. Since we relied on computer-generated data, we evaluated the
general and application control environment of certain financial systems and evaluated the
reliability of the data on a test basis.

        Because the audit was limited, it would not necessarily disclose all the internal control
weaknesses that may have existed. Furthermore, because of inherent limitations in any system of
internal controls, errors or irregularities may occur and not be detected. The issues addressed in
this report represent our observations of activities through the end of fieldwork on
January 5, 1999. Projections of any evaluation of the internal controls to future periods is subject
to the risk that procedures may become inadequate because of changes in conditions or the
effectiveness of the design and operation of policies and procedures may deteriorate.




                                                   1
        In addition to the audit work conducted by the Office of Inspector General, Westinghouse
internal audit personnel reviewed the payroll cycle at Westinghouse. The results of the internal
audit work were reported separately through internal audit’s normal reporting process. Also, an
independent public accounting firm reviewed Nuclear Materials Inventories, Pension and Other
Post-Retirement Liabilities, Disbursements, and Finance.

        The Office of Inspector General considered all findings generated as a result of these
reviews when preparing the audit report on the Department’s consolidated FY 1998 financial
statements (Audit Report No. IG-FS-99-01) and the management report referred to in that report.
The Office of Inspector General is addressing issues requiring local management attention in this
report.

       Savannah River management waived the exit conference.


OBSERVATIONS

        At Savannah River and Westinghouse, we observed weaknesses in internal controls for
computer systems, year-end reconciliation procedures, and active facility remediation data.
Specifically, we found that although Westinghouse had implemented policies, procedures, and
physical controls to protect computer programs and data files, certain vulnerabilities existed on
selected systems and devices. We also found that certain discrepancies in year-end financial data
were not detected and square footage information supporting the accrued liability for remediation
of active facilities was inconsistent. We recommend that internal controls be strengthened in these
areas. In addition, we observed that Savannah River had inadvertently excluded two segments
from its allocation of indirect costs.

        Management generally concurred with the findings and recommendations and has agreed
to take corrective action.

       Details of the observations and management's response start on page 3.


                                                     _________(Signed)______
                                                     Office of Inspector General




                                                2
                                DETAILS OF OBSERVATONS


1.     Site Computer Network

        Westinghouse relies heavily on computer resources, including its computer network
(SRSNET), to carry out its mission. The SRSNET consists of local area networks for operational
and administrative functions. Federal and Departmental directives require that procedures be
developed and implemented to prevent misuse and abuse of unclassified computer resources.
These procedures should include access controls, such as passwords and user identifications, to
protect these resources from unauthorized modification, loss, or disclosure. These procedures
should also include practices to authorize, monitor, and review user access.

        We reviewed the automated system security control environment for SRSNET and
selected devices including information systems that process financial data for preparation of the
Department’s financial statements. We found that although Westinghouse had implemented
policies, procedures, and physical controls to protect computer programs and data files, certain
vulnerabilities existed on selected systems and devices. This condition resulted because
Westinghouse had not implemented sufficient controls to prevent unauthorized access to selected
systems and devices. As a result, there is an increased risk of unauthorized access to the
SRSNET.

Recommendation

       We recommend that the Manager, Savannah River Operations Office, direct Westinghouse
to improve security controls for accessing its computer network.

Management Response

        Management generally agreed with the finding and recommendation and indicated that
action had been taken to address the finding and prevent recurrences.

Auditor Comment

       The comments provided are responsive to the intent of our recommendation.




                                                3
2.     Year End Reconciliations

        The Department’s Accounting Handbook states that each field element independently
monitors and controls the activities that affect their accounts. To ensure the accuracy of the
Department’s financial data, each operations/field office needs to assess the reliability and
accuracy of the financial data reported by the Department for their office. We observed instances
when Savannah River did not detect that the totals recorded in DISCAS were not in agreement
with the amounts reported in the financial statements produced by the Headquarters MARS-based
system. Specifically, for account 3896 - Funded Environmental Liabilities, DISCAS recorded
the FY 1998 balance as $135 million and the MARS-based system reported the balance as $289
million, a difference of $154 million. For account 3996 -Environmental Liabilities, DISCAS
recorded the FY 1998 balance as $28,255 million and the MARS-based system reported the
balance as $28,759 million, a difference of $504 million. Savannah River had not performed a
reconciliation between the DISCAS trial balance and the amounts reported in the financial
statements produced by the Headquarters MARS-based system. As a result, Savannah River did
not notify Headquarters that the financial statement data produced by the MARS-based system
were inaccurate.

Recommendation

       We recommend that the Manager, Savannah River Operations Office, incorporate into the
annual year-end process the reconciliation of the DISCAS trial balance with the financial
statement data produced from the MARS-based system.

Management Response

        Management concurred with the recommendation and agreed to establish a year-end
closing routine that would require reconciliations of the generated financial statements to the
DISCAS trial balance.

Auditor Comment

       Management’s action was responsive to the finding and recommendation.




                                                 4
3.     Remediation of Active Facilities


        The Department’s accrued liability for active facilities represents anticipated remediation
costs for facilities that are conducting ongoing operations but will ultimately require stabilization,
deactivation, and decommissioning. The field offices provide Departmental Headquarters with
estimated data detailed by facility type and footprint (number of floors and square footage). From
this data, the Department generates its accrued liability for remediation of active facilities. As of
September 30, 1998, the Department’s accrued liability for active facilities was about $20 billion.

         Savannah River used its Facility Information Management System (FIMS) to develop the
active facility data provided to Headquarters. While verifying the square footage used to develop
the data, we found several databases that contained inconsistent square footage information. As a
result, there is an increased risk of misstatements in the Department’s active facility liability.

Recommendation

        The Manager, Savannah River Operations Office, should institute internal controls to
ensure that square footage data is accurate and consistent.


Management Response

         Management concurred with the recommendation and stated that a management task team
is developing methodology to insure that a single database feeds facility information to all affected
site systems.

Auditor Comment

       The planned action is responsive to the intent of the recommendation.




                                                  5
4.     Allocation Of Indirect Costs

        In its FY 1998 allocation of indirect costs, Savannah River inadvertently excluded two
responsibility segments from its calculation. In one case, costs of about $31.5 million for
responsibility segment 08940 (“Other Programs”) were not allocated to other responsibility
segments. In the other case, costs of about $5.6 million for budget and reporting code WN were
not included in the cost allocation base. As a result, the allocation of indirect costs was
inaccurate.

Recommendation

        We recommend that the Manager, Savannah River Operations office, revise the indirect
cost allocation to include the two segments that had been omitted.

Management Response

        Management concurred with the finding and recommendation. The FY 1998 managerial
cost allocation was revised and resubmitted to Departmental Headquarters in December 1998.

Auditor Comments

        Management’s action was responsive to the finding and recommendation and no further
action is required.




                                               6
                                                              IG Report No. ER-FS-99-03




                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and therefore ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

       1.      What additional background information about the selection,
               scheduling, scope, or procedures of the audit or inspection would
               have been helpful to the reader in understanding this report?

       2.      What additional information related to findings and
               recommendations could have been included in this report to assist
               management in implementing corrective actions?

       3.      What format, stylistic, or organizational changes might have made this
               report's overall message more clear to the reader?

       4.      What additional actions could the Office of Inspector General have taken
               on the issues discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we
have any questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization_____________

When you have completed this form, you may telefax it to the Office of Inspector General
at (202) 586-0948, or you may mail it to:

       Office of Inspector General (IG-1)
       U.S. Department of Energy
       Washington, D.C. 20585
       ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.




                                                 7
8
